No.

 

 

In The
Supreme Court of the United States

TIMOTHY TIJWAN DOCTOR
Petitioner,
Vv.
UNITED STATES OF AMERICA,
Respondent.

 

On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Eleventh Circuit

 

CERTIFICATE OF SERVICE

 

I HEREBY CERTIFY, pursuant to Supreme Court Rule 29.5(b) and this
Court’s Order (Apr. 15, 2020), that on this 22nd day of January 2021:

(1) one paper copy of the Petition for a Writ of Certiorari and one paper copy
of the Motion for Leave to Proceed In Forma Pauperis were sent by U.S. Priority
Mail to the Clerk, United States Supreme Court, One First Street, N.E.,

Washington, D.C. 20543; and
(2) electronic copies of the Petition for a Writ of Certiorari and the Motion for
Leave to Proceed In Forma Pauperis were provided by electronic service to the
Solicitor General at SupremeCtBriefs@USDOJ.gov.

Respectfully submitted,

/s/ Patrick K. Korody

Patrick K. Korody, Esquire
Korody Law, P.A.

Florida Bar No. 0107361

118 W. Adams Street, Suite 500
Jacksonville, Florida 32202
Telephone: (904) 383-7261
Facsimile: (904) 204-9548
Email: patrick@korodylaw.com
Counsel for Petitioner
